-822fi

No.

IN THE
SUPREME COURT OF THE UNITED STATES
^p,eme Court, U S'
FILED

FEB 2 6 2021
FRANCIS BOYD

— PETITIONER

OFFICE of THFHl fou-

(Your Name)
vs.
SUPERINTENDENT OF ROCKVIEW

— RESPONDENT(S)

CV-97-7160

PETITION FOR EXTRAORDINARY WRIT OF HABEAS CORPUS

EASTERN DISTRICT OF PENNSYLVANIA
UNITED STATES DISTRICT COURT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

FRANCIS BOYD
(Your Name)
500 E. 4TH STREET

(Address)
CHESTER. PA. 19013

(City, State, Zip Code)
t

]VSH -1T0

FEB 2 6 2021

lr-\

N/A

'

(Phone Number)

I “

QUESTIONS PRESENTED FOR REVIEW

1). CAN A TRIAL JUDGE INSTRUCT A JURY DURING A JURY CHARGE , THAT THEY CANNOT FIND
PETITIONER GUILTY OF A CERTAIN DEGREE OF MURDER AFTER ENTERTAINING A QUESTION
FROM THE JURY ON THE DEGREES OF MURDER? A DEGREE OF MURDER LISTED ON THE BILL OF
INDICTMENT?

2). CAN A TRIAL JUDGE GIVE AN ERRONEOUS CHARGE ON THIRD DEGREE MURDER THE SECOND
TIME AROUND AFTER GIVING THE CORRECT ONE THE FIRST TIME WHEN THE JURY ASKED FOR A
RE-CHARGE ON FIRST, SECOND AND THIRD DEGREE MURDER?

u

PARTIES
THE COMMONWEALTH OF PENNSYLVANIA

Editorial Information: Subsequent History
.. Post-conviction relief dismissed at, Writ of habeas corpus denied Com. v. Bovd. 401 Pa. Super. 638, 577
A.2d 647,1990 Pa. Super. LEXIS 1053 (Apr. 20,1990)Habeas corpus proceeding at Bovd v. Myers, 1998
U.S. Dist. LEXIS 20253 (E.D. Pa., Dec. 21,1998)Post-conviction proceeding at, Decision reached on
appeal by Commonwealth v. Bovd. 823 A.2d 1022, 2003 Pa. Super. LEXIS 1384 (Pa. Super. Ct., Mar.
27, 2003)Post-conviction proceeding at, Decision reached on appeal bv Commonwealth v. Bovd. 897
A.2d 514, 2006 Pa. Super! LEXiS 701 (Pa. Super. Ct., Feb. 24, 2006)Writ of habeas corpus dismissed,
Certificate of appealability denied Bovd v. Klem, 2007 U.S. Dist. LEXIS 67649 (E.D. Pa., Sept. 13,
2007)Post-conviction proceeding at Decision reached on appeal bv Commonwealth v. Bovd. 15 A.3d
543, 2010 Pa. Super. LEXIS 5664 (Pa. Super. Ct., Oct. 27,2010)Post-conviction proceeding at, Writ
granted by, in part, Request granted Bovd v. Court of Common Pleas, 164 A.3d 461,2016 Pa. LEXIS
2812 (Pa., Dec. 16, 2016)Post-conviction relief dismissed at Commonwealth v. Bovd. 2018 Pa. Super.
Unpub. LEXIS 1804 (May 31, 2018)Post-conviction relief denied at, Writ of habeas corpus dismissed
Commonwealth v. Bovd. 2018 Pa. Super. Unpub. LEXIS 2736 (July 30,2018)

i

i

!
I

i
FRANCIS BOYD V. SUPERINTENDENT ROCKVIEW SCI, et al 2-97-cv-07160 2018
FRANCIS BdYD V. SUPT. ROCKVIEW SCI, etal CASE NUMBER: 19-2061 U.S. COURT OF APPEALS
2019
i
I

1

i
i

;

±■

IN THE SUPREME COURT OF THE UNITED STATES

EX PARTE FRANCIS BOYD

PETITION FOR AN EXTRAORDINARY WRIT OF HABEAS CORPUS

Petitioner in the above captioned action respectfully request this Honorable Court hear his
claims concerning a miscarriage of justice that occured during the Judge's charge to the jury.
The District Court in 2018 Judge Schiller of the United States District Court Third Circuit did not
consider this specific claim while hearing petitioner's 60(b)(6) petition. Petitioner claimed that a
miscarriage of justice occured as a result of the trial judge's erroneous jury charge and the error
caused petitioner to serve a life without parole sentence.

RELIEF SOUGHT

Petitioner seeks for this Honorable Court to rule that the trial judge was in error when he
gave a different and erroneous charge of third degree murder to the jury the second time
following a question by the jury to define First, Second and Third degree murder. Or remand
back to the district court for them to hear petitioner's claim. Or for this Honorable Court to
hear and decide petitioner's claim on its own.

TABLE OF CONTENTS
QUESTIONS PRESENTED

U

PARTIES

i

TABLE OF CONTENTS
TABLE OF AUTHORITIES

3

CITATION OF OPINIONS

4-

STATEMENT FOR THE BASIS OF JURISDICTION........ ^

a

STATEMENT OF THE CASE
RELIEF,SOUGHT

l

APPELLATE JURISDICTION

ha

EXCEPTIONAL CIRCUMSTANCES,

S6

ADEQUATE RELIEF.

Ha

ATTACHMENTS

Notes Of Testimony(s)
Page...932....Bills of Information Petitioner was charged with
Page...946....First Third Degree Murder Instructions
Page...959...Jury request for a re-charge on First, Second & Third Degree Murder
Page(s)...970 Paragragh #2...Judgeinferred to the jury that they cannot find petitioner guilty of
third degree murder.

a-

TABLE OF AUTHORITIES
5

Montgomery v. Louisiana
Chapman v. California

5

Harmelin v. Michigan

.6

Glen Campbell v. Ohio,

6

INREWiNSHIP.

.6

Graham v. Florida

6

Boyd v. Klem

8

Weeks v. Angelone,

9

Whitney v. Horn

9

Oberkfell v. Hodges,

10

Fahy v. Connecticut,

10

3^

APPELLATE JURISDICTION

The writ will be in aid of the courts appellate jurisdiction because the lower federal courts
would not hear petitioner's claims of miscarriage of justice pertaining to the questions
presented.

ADEQUATE RELIEF CANNOT BE OBTAINED IN ANY OTHER FORM OR FROM ANY
OTHER COURT AND EXCEPTIONAL CIRCUMSTANCES WARRANT THE EXERCISE OF
THE COURTS DISCRETIONARY POWERS.
Because all state courts and federal courts said that my claim(s) are defaulted
because my trial attorney did not file a direct appeal. I informed my initial collateral
review attorney about both matters, the faulty jury charge, and the fact that my
attorney did not file my direct appeal. He said that I don't have any merits to my
arguments. This violated my rights to due process of the law.

q A-

EXCEPTIONAL CIRCUMSTANCES

Exceptional circumstances warrants the exercise of this Court's discretionary powers.
Petitioner's trial attorney did not seek a direct appeal to the state's highest court. As a result, no
court would hear petitioner's claim, both state and federal. They said that the claim was
procedurally defaulted even after petitioner claimed that a miscarriage of justice occured. And
Judge Schiller of the District Court never considered petitioner's claim in his order denying
petitioner's 60(b)(6) petition. And the Third Circuit Court of Appeals sustained the Judge's order,
even after petitioner claimed a miscarriage of justice occured. Petitioner never received an
ajudication on the merits of his Erroneous Jury Charge Claim and the judge just got away with
this miscarriage of justice. This court in Montgomery v. Louisiana, 577 U.S.

, 136 S.Ct.

193 L.ed.2d 599 (2016) held: {A} CONVICTION OR SENTENCE IMPOSED IN VIOLATION OF A
SUBSTANTIVE RULE IS NOT JUST ERRONEOUS BUT CONTRARY TO LAW, AS A RESULT, VOID [l)T
FOLLOWS, AS A GENERAL PRISCIPLE, THAT A COURT HAS NO AUTHORITY TO LEAVE IN PLACE A
CONVICTION OR SENTENCE THAT VIOLATES A SUBSTANTIVE RULE". ID. AT 731. "THE
CONSTITUTION REQUIRES SUBSTANTIVE RULES TO HAVE RETROACTIVE EFFECT REGARDLESS OF
WHEN A CONVICTION BECAME FINAL". MONTGOMERY, SUPRA. Petitioner was sentence to Life
Without Parole as a result of the trial judge violating a "Substantive Rule". Petitioner had a
constitutional right to a fair trial

. This Court in Chapman v. California, 386 US 18,24,17 Led 2d 705,87 S.Ct. 824 (1967) held: "we
held that the standard for determining whether a conviction must be set aside because of a

5.

federal constitutional error is whether the error "was harmless beyond a reasonable doubt."
Petitioner was sentence to life without parole because of the error. This Court in Harmelin v.
Michiean 501 US 957 (1991) said: Life without parole" is the second most severe penalty
permitted by law". Id. And in Glen Campbell v. Ohio 200 L.ed 2d 502,2018 US Lwxis 1638, Justice
Sotomayer said "Life without parole sentences share some charateristics with death sentences"
(quoting Graham v. Florida, 560 US 48, 69,130 S.Ct. 2011 (2010). If this Court won,t at least take
a look at petitioner's claims, he will die in prison because a judge dictated to a jury that they
cannot find him guilty of a charge that petitioner was charged with. This violated In re Winship,
397 US 358,25 Led 2d 368,90 S.Ct. 1068 (1970).

ADEQUATE RELIEF

Adequate relief cannot be obtained in anv other form or from any other court. (See
Exceptional Circumstances Above).

CONCISE STATEMENT OF THE BASIS FOR JURISDICTION

Petitioner filed a 60(b)(6) in 2018 and the Third Circuit dismissed it in 2019. (The order from the
third circuit was destroyed in a flood in petitioner's cell.) Petitioner then went through medical
treatment for Hep C treatment and was unable to marshal a legal challenge to the Third Circuit's

i.

Order. When treatment was over, petitioner filed the instant petition in March of 2020. That same
month, the Department of Corrections locked down all of its 26 prisons due to Covid 19. Petitioner
was unable again to enter the prison's law library to prepare his legal work pertaining to the
instant petition. Petitioner never heard back from this court concerning his petition filed in March
of 2020, so petitioner filed the petition again. He received a letter from the clerk On 12-15-2020,
that was dated on 11-6-2020, stating that his petition was being sent back because 'Failure to
reflect the changes requested in prior correspondence". However, petitioner never received what
ever letter the court sent to him. During the Covid 19 lockdown, some legal mail failed to reach
inmates here at the prison.

Judge Schiller denied petitioner's 60(b)(6) petition in November of 2018 and did not consider
petitioner's two questions concerning the erroneous jury charge in his order, which was also
destroyed in the flood.

JURISDICTION

This Court has jurisdiction under 28 U.S.C. § 1651(a) to consider this writ.

n.

Concise Statement Of The Case

Petitioner was arrested on June 4, 1976 and charged with murder, robbery,
conspiracy & weapons. He was held over for trial on the following charges:

Robbery, First Degree Murder, Second Degree murder, Third Degree Murder,
Voluntary Manslaughter, Conspiracy & Weapons. CP-597-600 1976. (271 Pa. Super.
88 412 A.ed 588 Lexis 3165). Boyd v. Klem 2007 U.S. Dist. Lexis 67649 (E.D. Pa. Sept.

13, 2007).
Petitioner's case went to the jury on December 1, 1976. The jury came back
on December 2,1976 with a question as follows:

"Please recharge us on the definition of first degree murder, second degree
murder, and third degree murder''.

The judge, Albert F. Sabo gave a totally different charge for third degree murder
than the initial charge. In fact, he inferred to the jury that they cannot find
petitioner guilty of third degree murder although third degree murder was one of
the charges that the iurv was considering during their deliberations.

8-

Petitioner's trial attorney did not object to this erroneous recharge nor did he file
petitioner's direct appeal to the states Supreme Court. As a result, no state or
federal court would entertain petitioner's claim(s). The jury had a right to find
petitioner guilty of third degree murder, which is a lesser degree of murder
than first or second degree. The only evidence presented at trial to connect
petitioner to the murder was a statement given to police to detectives
admitting to the murder saying that his weapon accidently discharged and hit
the decedent while under the influence of drugs. The jury believed petitioner
and wanted to either find him guilty of third degree murder, or consider
finding him guilty of third degree murder. In Pennsylvania, the jury can find a
defendant guilty of third degree murder and the robbery. No where in
Pennsylvania or Federal law does it stipulates that a trial judge can tell a jury
not to consider a specific charge during their deliberations, that the defendant
was charged with. The jury did just what the judge ordered them to do.

"Jurors are presumed to follow the Court's instructions". "(Weeks v. Angelone 528
U.S. 225, 234 145 Led. 2d 727, 120 S.CT> 727 (2000). Further more, the jury
cannot be expected to know when an incorrect instruction is given. (Whitney
v. Horn, 280 F.3d 240, 258 (3rd Cir. 2002).

"1.

This erroneous charge by the judge violated petitioner's Due Process rights to the
U.S. Constitution and it was a miscarriage of justice. Petitioner was
sentenced to Life without parole, which in Pennsylvania is a death sentence.
As Pennsylvania is the only state in the country to sentence defendants to
life without parole for a non-premeditated, accidential murder.(SecondDegree Murder). Which means that petitioner will die in prison for a murder
that the jury did not want to find him guilty of, because of the unlawful
exercise of government power. This Court in Oberkfell v. Hodges, 135 S.CT.
2584 Quoted Schuett v. Bamn. 572 U.U.

134 S.CT. 1623, 188 L.ed.2d at

268 saving: "(tlhe freedom secured bv the constitution consists, in one of its
essential dimensions, of the right of the individual not to be injured by the
unlawful exercise of government power". Thus, when the rights of persons
are violated "the constitution requires redress by the courts". 134 S.CT>
1623.188 Led 2d at 268".

The judges erroneous charge undoubtedly caused the jury to find petitioner guilty
of second-degree murder, because his instruction ordered them not to
consider third degree murder, a degree of murder in which petitioner was
charged with. This Court in Fahv v. Connecticut 375 U.S. 85,11 L.ed 2d 171,
84 S.CT> 229 held: "The question is whether there is a reasonable possibility

/ 0*

that the evidence complained of might have contributed to the conviction".
Id. at 86-87,11 Led. 2d at 173.

In the judges charge to the jury on third degree murder he said: "If no intention
can be infered, either expressed or implied, from the facts, then the verdict
should be third degree murder". N.O.T. at Pg. 946.

The jury found petitioner NOT GUILTY of INTENTIONAL MURDER. (First Degree
Murder). However, the judge in that same charge infered to the jury that
they couldn't find petitioner guilty of (Third Degree Murder). See N.O.T. at
970 Enclosed). The charge was both erroneous and prejudicial, which
amounted to a micsarriage of justice. Petitioner's trial attorney did not
object to the erroneous charge, nor did his Initial collateral review attorney
challange the trial attorney's error when petitioner brought it to his
attention. As petitioner said above, every State court and every Federal
court either said petitioner was time barred or his claim was procederallt
defaulted. The judge's faulty erroneous instruction(s) virtaully eliminated
any considerations that they (Jury) may have had to consider a conviction on
third degree murder during their deliberations.

WHEREFORE, petitioner prays that this Honorable Court Grant the writ.
<■-

fl*

